                                                                             Report No. DODIG-2014-111



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 8, 2014




                     Exoatmospheric Kill Vehicle
                     Quality Assurance and Reliability
                     Assessment – Part A




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                  Results in Brief
                                  Exoatmospheric Kill Vehicle Quality Assurance and
                                  Reliability Assessment – Part A



September 8, 2014                                   Findings (cont’d)

Objective                                               B.	 Boeing and Raytheon did not ensure all quality assurance
                                                            and technical requirements for mission-critical assemblies
Our objective was to perform a quality                      flowed down to the supply chain and were verified.
assurance assessment of the Missile Defense                 Therefore, it is uncertain that all supplier products will
Agency’s Ground-Based Midcourse Defense,                    meet system, performance, and reliability requirements.
Exoatmospheric Kill Vehicle, which is
procured from Raytheon Missile Systems via              C.	 Boeing and Raytheon were not adhering to configuration
the prime contractor Boeing. Our assessment                 management processes, specifically with respect to
resulted in two separate reports.                           management of change processes for design requirements.
                                                            This leads to some uncertainty in fielded configurations.
Part A: Assess Raytheon conformity to
                                                        D.	 Missile Defense Agency, Boeing, and Raytheon were not
Aerospace Standard (AS)9100C, “Quality
                                                            ensuring that all quality management systems were in
Management Systems - Requirements for
                                                            compliance with the AS9100C standard. We identified
Aviation, Space and Defense Organizations,”
                                                            a total of 48 nonconformances that were violations of
contractual quality assurance clauses, and
                                                            the AS9100C standard. These nonconformances could
internal quality assurance processes and
                                                            result in the production of nonconforming hardware
procedures.
                                                            and software which could effect mission success.
Part B: Assess the Exoatmpheric Kill Vehicle
reliability of deployed assets. It will be          Recommendations
released as a separate classified report.
                                                    The Director, Missile Defense Agency, should:


Findings                                                A.	 Ensure software development processes are fully
                                                            documented, implemented, and enforced throughout the
The majority of quality management systems                  Exoatmospheric Kill Vehicle supply chain.
were in compliance. However, some areas
need improvement:                                       B.1	 Ensure all suppliers of critical items are identified as
                                                             critical suppliers, receive the necessary contractual
    A.	 Boeing and Raytheon were not                         requirements, and requirements are verified throughout
        ensuring that software development                   the supply chain.
        processes and testing were sufficient,
                                                        B.2	 Ensure fielded hardware affected by an insufficient
        which could result in reliability issues.
                                                             Hardware Acceptance Review Checklist process is assessed
                                                             for risk.




Visit us at www.dodig.mil


                                                                        DODIG-2014-111 (Project No. D2013-DT0TAD-0005.000) │ i
                                       Results in Brief
                                       Exoatmospheric Kill Vehicle Quality Assurance and
                                       Reliability Assessment – Part A



  Recommendations (cont’d)                                   Management Comments
       C.	 Ensure design and configuration changes do not    MDA provided responsive comments on the draft of this
           circumvent the Missile Defense Agency Assurance   report and agreed with the five recommendations in the
           Provisions for configuration management.          report. Additionally, MDA provided technical and security
                                                             comments that have been incorporated into this report
       D.	 Conduct an effective root cause analysis
                                                             as appropriate. No further comments are required.
           and implement corrective actions for all 48
           nonconformances including assessing the risk to
           fielded hardware.




ii │ DODIG-2014-111 (Project No. D2013-DT0TAD-0005.000)
Recommendations Table
                                     Recommendations          No Additional
                        Management   Requiring Comment      Comments Required
Director, Missile Defense Agency                            A, B.1, B.2, C, and D




                                         DODIG-2014-111 (Project No. D2013-DT0TAD-0005.000) │ iii
                                              INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                             4800 MARK CENTER DRIVE
                                          ALEXANDRIA, VIRGINIA 22350-1500


                                                                                          September 8, 2014

           MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY

           SUBJECT:	 Exoatmospheric Kill Vehicle Quality Assurance and Reliability Assessment – Part A
           	         (Project No. DODIG-2014-111)

           The DoD Office of Inspector General (OIG) conducted a quality assurance and reliability assessment
           of the Ground-Based Midcourse Defense (GMD), Exoatmospheric Kill Vehicle (EKV), procured from
           Raytheon Missile Systems. Our assessment resulted in two reports, Part A and Part B. Part A,
           assessed the GMD EKV program’s quality management system. Part B is classified and provides
           our reliability assessment of deployed GMD EKV assets.

           We found for the GMD EKV that the majority of quality management systems were in
           compliance. However, the Missile Defense Agency (MDA) was not ensuring that all quality
           management systems provisions complied with the AS9100C standard which could
           inadvertently effect mission success. We identified a total of 48 nonconformances that violated
           the AS9100C standard.   The nonconformances indicated that MDA needs to improve EKV
           quality assurance processes in the following areas: software development and testing, flow
           down of quality assurance and technical requirements for mission-critical assemblies, and
           management of the engineering change process for design requirements.

           We considered management comments to the draft report when preparing the final report.
           The comments received from MDA conformed to the requirements of DoD Directive 7650.3;
           therefore, we do not require additional comments.

           We appreciate the courtesies extended to our staff. Please direct questions to Mr. Thomas Bulk
           at (703) 604-9619 or thomas.bulk@dodig.mil. If you desire, we will provide a formal briefing on
           the results.




           	                                                Randolph R. Stone
           	                                                Deputy Inspector General
           	                                                Policy and Oversight




iv │ DODIG-2014-111
Contents
Introduction
Objectives_________________________________________________________________________________________1
Background_______________________________________________________________________________________1

Quality Assurance Assessment
AS9100C Quality Management Systems - Requirements for Aviation,
   Space, and Defense Organizations__________________________________________________________9
	   Raytheon___________________________________________________________________________________ 11
	   Boeing______________________________________________________________________________________ 15
	   Corrective Actions Taken to Date ________________________________________________________ 16

Finding A. Software Management Practices___________________ 17
Recommendation A – Management Comments and Our Response________________________ 17

Finding B. Supply Chain Management ____________________________ 18
Recommendation B.1 – Management Comments and Our Response______________________ 18
Recommendation B.2 – Management Comments and Our Response______________________ 19

Finding C. Configuration Management____________________________ 20
Recommendation C – Management Comments and Our Response________________________ 20

Finding D. Overall Findings and Recommendations______ 21
Recommendation D – Management Comments and Our Response________________________ 21

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 22
Appendix B. Prior Coverage__________________________________________________________________ 25

Management Comments
Missile Defense Agency________________________________________________________________________ 26

Acronyms and Abbreviations______________________________________________ 28




                                                                                                       DODIG-2014-111 │ v
                                                                                           Introduction




Introduction
Objectives
Our objective was to perform a quality assurance assessment of the Missile Defense
Agency’s Ground-Based Midcourse Defense (GMD), Exoatmospheric Kill Vehicle (EKV),
which is procured from Raytheon Missile Systems. We conducted the assessment onsite
at the GMD Program Office, Huntsville, Alabama, and at Raytheon Missile Systems,
Tucson, Arizona.     Based on our evaluation of program office data, we determined
it necessary to review EKV reliability in conjunction with our quality assurance
assessment. Thus, our assessment resulted in two parts:

         •	 Part A (Unclassified): Assess Raytheon conformity to Aerospace Standard
              (AS)9100C, “Quality Management Systems - Requirements for Aviation,
              Space and Defense Organizations,” contractual quality assurance clauses,
              and internal quality assurance processes and procedures.

         •	 Part B (Classified): Assess the reliability of deployed assets by evaluating
              historical manufacturing and quality management system data.

This report is Part A of our assessment; Part B will be classified and released at a
later date.


Background
Establishment of Missile Defense Agency
A Secretary of Defense memorandum titled, “Missile Defense Program Direction,”
January 2, 2002, established a single program to develop an integrated defense
capability under the management of Missile Defense Agency (MDA). MDA is responsible
for developing the various missile defense programs identified to support an overall
Ballistic Missile Defense System (BMDS) (Figure 1).

The GMD is part of the BMDS and is an integral part of the layered defense strategy.
According to MDA the GMD’s mission is to “provide Combatant Commanders a capability
to engage and destroy limited intermediate and long-range ballistic missile threats in
the midcourse battle space to protect the U. S. Homeland.”




                                                                                       DODIG-2014-111 │ 1
Introduction



                 Figure 1. Ballistic Missile Defense System




                 Acquisition Strategy
                 The Secretary of Defense memorandum of January 2, 2002, states that the BMDS is
                 not subject to the traditional requirements generation process of the Joint Capabilities
                 Integration and Development System.          Therefore, MDA was authorized to use
                 non-standard approaches for both acquisition and requirements generation. MDA’s
                 acquisition processes, however, were and are required to be consistent with the
                 principles of DoD Directive (DoDD) 5000.01, “The Defense Acquisition System,” and
                 DoD Instruction (DoDI) 5000.02, “Operation of the Defense Acquisition System”. When
                 the interceptor was acquired, MDA did not have a standardized acquisition process.
                 On January 13, 2009, MDA established its acquisition policy to standardize MDA’s
                 acquisition processes. On April 29, 2011 MDA updated its acquisition management
                 policy to reflect standard acquisition lifecycle phases.       MDA has subsequently
                 updated its acquisition policy in MDA Directive 5013.01 (August 24, 2012) and MDA
                 Instruction 5013.02-INS (August 24, 2013).




2 │ DODIG-2014-111
                                                                                              Introduction



Because of the urgent need and Presidential directive to field a capability, the
GMD Program expedited the EKV acquisition process.              DoDD 5134.09 requires
MDA to manage the BMDS consistent with the principles of DoDI 5000.02.
However, DoDD 5134.09 allows an accelerated acquisition and flexible approach to
requirements generation and acquisition processes instead of the standard processes
identified in DoDI 5000.02. Therefore, the EKV did not go through the milestone
decision review process and the product development phase (Engineering and
Manufacturing Development).       The purpose of the milestone decision review is
to carefully assess a program’s readiness to proceed to the next acquisition phase
and to make a sound investment decision committing the DoD’s financial resources.
For the product development phase, the program is assessed to ensure that the
product design is stable, manufacturing processes are controlled, and the product can
perform in the intended operational environment.

GMD Program data indicated that the EKV prototype design was forced into operational
capability with minimal design turns, and only those addressing obsolescence
were undertaken by the Program. The design turns primarily addressed the most
critical obsolescence performance risks versus addressing reliability, producibility,
and maintainability for the operational fleet.


Ground-Based Midcourse Defense System
The GMD Program, which is part of the Ballistic Missile Defense System, was initiated
in the 1990s to develop a homeland missile defense system against rogue nations.
Using space, ground, and shipboard sensors, the GMD battle management system
assesses the threat, determines if the threat exists in its battle management space,
and launches an interceptor to intercept and destroy the warhead in flight. Today, the
GMD system is composed of 30 Ground-Based Interceptors (GBIs) located in missile
fields in Fort Greely, Alaska, and Vandenberg Air Force Base, California, with fire control
nodes in Colorado and Alaska. A memorandum released in March of 2013 by the
Secretary of Defense sought to increase the number of GBIs by 14 for a total of 44.




                                                                                          DODIG-2014-111 │ 3
Introduction



                 Figure 2 shows a three-stage GBI with the EKV as the payload. The booster portion
                 of the GBI carries the EKV toward the target’s predicted location in space.       Once
                 released from the booster, the EKV uses guidance data transmitted from Ground
                 Support and Fire Control System components and onboard sensors to identify and
                 destroy the target warhead. EKV impact is outside the Earth’s atmosphere using the
                 direct collision to destroy the target warhead. Boeing is the prime contractor for
                 the GBI and procures the EKV from Raytheon Missile Systems. There are primarily
                 two variants of the EKV system, capability enhancement I (CE-I) and capability
                 enhancement II (CE-II).       The CE-I configuration includes connector upgrades from
                 the first prototype to address obsolescence issues. The CE-II version is an upgrade of
                 CE-I to resolve processor obsolescence issues and to enable the EKV to track a greater
                 number of objects. There are other subconfigurations within CE-I and CE-II variants
                 that resulted from resolving design or manufacturing risks.

                 Figure 2. Ground-Based Interceptor




                     Source: MDA GMD Program Overview, November 4, 2013


                 GMD Program Schedule Impacts
                 Expedited Delivery Schedule
                 National Security Presidential Directive-23 (NSPD-23), “National Policy on Ballistic
                 Missile Defense,” December 16, 2002, directed the Department of Defense to deploy a
                 set of initial missile defense capabilities beginning in 2004. NSPD-23 resulted in the
                 fielding of initial missile defense capabilities before rigorous testing was complete to
                 validate performance. Schedule constraints also necessitated the need to field GMD
                 prototype assets.

                 The current EKV design is the prototype design of 1998 with upgrades for design
                 and manufacturing defects, and obsolescence issues. The immediate need for an initial
                 capability drove an accelerated development process and fielded capability before




4 │ DODIG-2014-111
                                                                                          Introduction



EKV performance was fully characterized prior to initial fielding. Requirements were
viewed as “goals” with little focus on reliability, producibility, and maintainability
requirements, which are integral to strategic systems with a life expectancy similar
to GMD.

A combination of cost constraints and failure-driven program restructures has kept
the program in a state of change. Schedule and cost priorities drove a culture of
“Use-As-Is” leaving the EKV as a manufacturing challenge. With more than 1,800 unique
parts, 10,000 pages of work instructions, and 130,000 process steps for the current
configuration, EKV repairs and refurbishments are considered by the Program to be
costly and problematic and make the EKV susceptible to quality assurance failures.


Flight Tests
Ten flight tests were completed since 2005 with seven tests designed to be intercept
tests and three as non-intercept tests. Of the seven intercept tests flown, four were
CE-I and three were CE-II configurations. Three of these intercept tests resulted in
failures attributable to the EKV. The lessons learned from the failed tests led to a
series of hardware and software design changes. Overall, these issues resulted in
the GMD Program suspending and slowing production of interceptors.

Flight Test Failures
Until the recent successful FTG-06b intercept flight test completed on June 22, 2014,
the GMD Program had been unable to demonstrate a successful CE-II Interceptor
test. Flight Test GMD 06 (FTG-06) in January 2010 failed due to a missing lockwire
on a CE-II EKV wire harness connector. Work instructions were updated as part of
the corrective action to ensure verification of lockwire connectors.    GMD added a
retest designated as FTG-06a.    However, the retest also failed in December 2010
due to the effects of vibration on the EKV guidance system. Due to the flight test
failures, MDA halted GMD flight testing, restructured its flight test program, stopped
production of the GMD interceptors, and redirected resources to return-to-flight
testing activities. A CE-I flight test was conducted in July 2013 (FTG-07) to support
the return-to-flight testing activities, which resulted in a test failure. To date, the
FTG-07 failure investigation is still ongoing to determine the root cause. The scope
of the investigation encompasses the entire EKV and Orbital Boost Vehicle power
system.   Table 1 and Figure 3 provide a summary of EKV flight test events and
failures including those noted in FTG-06, FTG-06a, and FTG-07.




                                                                                      DODIG-2014-111 │ 5
Introduction



                 Table 1. EKV Flight Test Events and Failures for CE-I and CE-II

                                                          EKV Flight     EKV Corrective      Planned
                     Mission      Type Test   Success                                                   Version         Date
                                                            Issue           Action          Intercept

                                                        Inertial
                                                        Measurement
                                     No                 Unit and         Software
                     FT-1                        Yes                                           No         CE-I        13 Dec 05
                                   Target               Sensor Off       Improvements
                                                        Nominal
                                                        Performance
                                                        Inertial
                                                        Measurement      Hardware
                                                        Unit and
                     FTG-02       Intercept      Yes                     and Software          Yes        CE-I        01 Sep 06
                                                        Sensor Off       Improvements
                                                        Nominal
                                                        Performance
                                                        N/A (Target                                                    25 May
                     FTG-03       Intercept     N/A                      N/A                   Yes        CE-I
                                                        Failure)                                                         07
                                                                         None
                     FTG-03a      Intercept      Yes    None                                   Yes        CE-I        28 Sep 07
                                                                         Required
                                   Mission                               Hardware
                     FTG-04                     N/A     N/A                                    Yes        CE-I          N/A
                                  Canceled                               Improvements
                                                        Divert System    Hardware
                     FTG-05       Intercept      Yes    Hardware                               Yes        CE-I        5 Dec 08
                                                                         Improvements
                                                        Anomaly
                                                        Quality
                                                        Issue and        Hardware
                     FTG-06       Intercept      No     off nominal                            Yes        CE-II       31 Jan 10
                                                                         Improvements
                                                        sensor
                                                        performance
                                                                         Assessing
                                                        Off Nominal
                                     No                                  2-stage
                     BVT-1                       Yes    Sensor                                 No         CE-I        6 Jun 10
                                   Target                                interceptor
                                                        Performance      design
                                                        Off Nominal
                                                        Inertial         Hardware
                     FTG-06a      Intercept      No     Measurement      and Software          Yes        CE-II       15 Dec 10
                                                        Unit             Improvements
                                                        performance
                                     No
                     CTV-01                      Yes    No               N/A                   No         CE-II       26 Jan 13
                                   Target
                                                                         Investigation
                     FTG-07       Intercept      No     Yes              ongoing               Yes        CE-I         5 Jul 13

                                                        TBD (Post        TBD (Post
                     FTG-06b      Intercept      Yes    Test Analysis    Test Analysis         Yes        CE-II       22 Jun 14
                                                        Ongoing)         Ongoing)
                     Source: GMD EKV DoD IG Quality Assurance Assessment Brief, November 4, 2013

                     Legend
                     BVT     Boost Vehicle Test                         FT     Flight Test
                     CE      Capability Enhancement                     FTG    Flight Test Ground-Based Interceptor
                     CTV     Controlled Test Vehicle                    TBD    To Be Determined




6 │ DODIG-2014-111
                                                                                                                                                                                  Introduction



Figure 3. EKV Flight Test Events and Failures CE-I and CE-II

        FT-1          FTG-02          FTG-03a           FTG-05           FTG-06            BVT-01          FTG-06a          GM CTV-01          FTG-07            FTG-06b
      DEC 2005       SEP 2006         SEP 2007         DEC 2008         JAN 2010          JUN 2010         DEC 2010          JAN 2013         JUL 2013          JUN 2014




       CE-I            CE-I             CE-I             CE-I            CE-II              CE-I            CE-II             CE-II             CE-I             CE-II
  • Interceptor    • GBI launched   • GBI launched   • GBI launched   • GBI launched    • Interceptor    • GBI launched    • Interceptor    • GBI launched    • GBI launched
  Only Test        from VAFB        from VAFB        from VAFB        from VAFB         Only Test        from VAFB         Only Test        from VAFB         from VAFB
  • GBI launched   • Target         • Target         • Target         • Target          • GBI launched   • Target          • GBI launched   • Target          • Target
  from VAFB        launched from    launched from    launched from    launched from     from VAFB        launched from     from VAFB        launched from     launched from
  • Simulated      KLC              KLC              KLC              RTS                                RTS                                RTS               RTS
  Target

  Successful       Successful       Successful       Successful       Unsuccessful      Successful       Unsuccessful      Successful       Unsuccessful      Successful
                   Intercept        Intercept        Intercept        Intercept (Post                    Intercept (Post                    Intercept (Post   Intercept
  Non Intercept                                                       Launch GBI        Non Intercept    Launch GBI        Non Intercept    Launch GBI
  Test                                                                Failure-EKV)      Test             Failure-EKV)      Test             Failure-EKV)




Source: GMD Progam Office, August 4, 2014
Legend
BVT       Boost Vehicle Test                                                            GBI          Ground-Based Interceptor
CE        Capability Enhancement                                                        KLC          Kodiak Launch Complex, Alaska
CTV       Controlled Test Vehicle                                                       RTS          Reagon Test Site
FT        Flight Test                                                                   VAFB         Vandenberg Air Force Base, California
FTG       Flight Test Ground-Based Interceptor


Contract
The Boeing Company was awarded the prime contract (HQ0006-01-C-0001)
on January 1, 2001, for evolutionary development, integration, and testing of a
cost-effective GMD system.                                   Boeing later awarded Raytheon Missile Systems a
subcontract for the EKV. Boeing required Raytheon to comply with AS9100 Quality
Standards in accordance with statement of work D743-11961-2 dated June 7, 2011.
There were originally 33 Test Bed, CE-I EKVs that were delivered from 2004 to
October of 2007 and 24 CE-II EKVs planned to be delivered between 2008 and
2015, of which 16 have been delivered to date. On December 30, 2011, Boeing was
awarded a Development and Sustainment Contract (DSC), HQ0147-12-C-0004, to
develop new capabilities, manufacture, test, and provide operational support of the
GMD system. Boeing then awarded Raytheon the subcontract for the EKV in 2012.
The contract scope includes resolving reliability and obsolescence issues; extending
the EKV service life; improving fleet reliability with new CE-II Block 1 EKVs and CE-I




                                                                                                                                                                               DODIG-2014-111 │ 7
Introduction



                 upgrades; increasing software and modeling and simulation capabilities; and providing
                 EKV operations and flight test support through 2018. Boeing and mission-critical
                 suppliers, including Raytheon, were required to meet AS9100 and the MDA Mission
                 Assurance Provisions (MAP).

                 The MAP provides a measureable standardized set of Quality, Safety, and Mission
                 Assurance requirements to be applied to those suppliers     developing mission and
                 safety critical items.   Under the Development and Sustainment Contract, Raytheon
                 is required to provide a MAP Requirement Applicability Matrix (RAM) that reflects
                 MAP    implementation     to ensure planning and execution of the Development and
                 Sustainment Contract (HQ0147-12-C-0004) is consistent with the MDA Assurance
                 Provisions. The RAM specifies applicability and approaches to MAP requirements.




8 │ DODIG-2014-111
                                                                        Quality Assurance Assessment




Quality Assurance Assessment
AS9100C Quality Management Systems - Requirements
for Aviation, Space, and Defense Organizations
We evaluated the Exoatmospheric Kill Vehicle quality assurance processes at Raytheon
Missile Systems, Tucson, Arizona, to the AS9100C Quality Management System
standard, as implemented by MAP Revision A.         The majority of systems were in
compliance with AS9100C. However, some areas needed improvement. We identified
a total of 48 nonconformances as violations of the AS9100C standard. Based on these
nonconformances, we determined that MDA, Boeing, and Raytheon were not ensuring
that all the quality management systems were in compliance with the AS9100C
standard. Based on AS9101D definition, we classified each of the nonconformances as
major nonconformances or minor nonconformances. Each nonconformance received
an additional technical review for accuracy and classification. This report focuses on
the major nonconformances.

Although we identified a total of 48 nonconformances, some systems were compliant
as stated above. Facility shop floor operations that included processes such as tool
control, foreign object debris control, and electrostatic discharge prevention were in
place and controlled. The electronic manufacturing process documentation system
appeared to ensure that out-of-sequence work and manufacturing liens (controls on
incomplete or nonconforming material) were addressed. Integration of the EKV was
done using clean room operations, which is typical of high reliability space programs.

In accordance with AS9101D (Quality Management Systems Audit Requirements for
Aviation, Space, and Defense Organizations) standard, a major nonconformance is
a nonfulfillment of a requirement that is likely to result in the failure of the quality
management system or reduce its ability to ensure controlled processes or compliant
products/services. A minor nonconformance is a nonfulfillment of a requirement that
is not likely to result in the failure of the quality management system or reduce its
ability to ensure controlled processes or compliant products or services.




                                                                                         DODIG-2014-111 │ 9
Quality Assurance Assessment



                 Table 2 shows the breakdown of major and minor nonconformances from the
                 assessment.

                 Table 2. Major/Minor Nonconformances for Each Organization
                                    Organization               Major                    Minor
                      Raytheon                       15                            25
                      Boeing                         6                             1
                      MDA GMD Program Office         1                             0


                 Shown in Figure 4 are the nonconformances by AS9100C clause and affected
                 organization.

                 Figure 4. Nonconformances by AS9100C Clause

                                                   Findings By AS9100C Paragraph

                               18
                                                                                                MDA
                               16
                                                                                                Boeing

                               14                                                               Raytheon


                               12

                               10

                                8

                                6

                                4

                                2

                                0




10 │ DODIG-2014-111
                                                                             Quality Assurance Assessment



The following sections discuss major nonconformances or an aggregate of minor
nonconformances considered collectively to constitute greater risk.


Raytheon
Design and Development (7.3)
Design and Development Planning (7.3.1). Raytheon was not compliant with the
required embedded coding standard. Programmers used lower case letters rather
than the required uppercase letters when declaring alphanumeric hexadecimal
numbers. Upper case letters are easier to differentiate from numbers and vice versa,
for example, the letter “l” could be confused with the number “1.” Not following the
coding standard poses a performance risk to future code modifications or maintenance.
Another nonconformance noted that the number of executable statements exceeded
the maximum of 600 statements as allowed by the EKV Coding Standard for code
files. This included the health and status test code file of the kill vehicle mission-critical
hardware, in-flight control software, the interrupt management and processing file,
and the kill vehicle communication processing file. File sizes that exceed established
standards could impact execution times and result in degraded performance
and maintenance.

Although Raytheon had information assurance processes in place to comply with
DD Form 254 and DoD 5220.22-M, Raytheon did not have processes in place that
comply with DoD Information Assurance Certification and Accreditation Process as
required by DoDI 8500.2, “Information Assurance.” This increases EKV information
risk of unauthorized access, information inaccuracy and inconsistency, and data
unavailability.   Another nonconformance identified that some of the required
safety critical software test cases were not conducted for CE-I Embedded Software
Build 20.8, Delta Formal Qualification Testing. Only 10 out of 30 of the required
test cases were conducted. Formal qualification testing is performed to fully verify
software performance under all possible conditions or scenarios. Failure to perform
full qualification testing can lead to loss or significant degradation of the mission.

Design and Development Inputs (7.3.2). Raytheon’s Failure, Modes, Effects, and
Criticality Analysis (FMECA) report did not reflect the current EKV design.              The
critical items list contained legacy part numbers, and had not been updated to
reflect the current design. Several of those critical items were no longer valid due to
design changes with the Inertial Measurement Unit. FMECA is an analytical method




                                                                                            DODIG-2014-111 │ 11
Quality Assurance Assessment



                 that is instrumental in the design process to identify failure modes and mitigate
                 risks. An inaccurate FMECA can result in not identifying failure modes that should
                 be mitigated. The FMECA should be updated and or assessed for each configuration
                 change to prevent unintended consequences.

                 Design and Development Verification (7.3.5). There was no evidence that some
                 software unit test results were evaluated for requirements traceability, internal and
                 external consistency of requirements, test coverage, compliance to work instructions,
                 feasibility of software integration and testing, and feasibility of operation and
                 maintenance. Evaluating these items is essential to ensuring there are no quality
                 escapes that will degrade functionality, performance, and maintenance of the software.

                 Control of Design and Development Changes (7.3.7). Raytheon inappropriately
                 used the waiver and deviation process to change the production baselines for some
                 CE-I and CE-II subcomponents. Some of the waivers and deviations were incorrectly
                 classified as minor rather than major; therefore, additional engineering analysis
                 by Boeing or MDA did not occur. A change to the production baseline without the
                 formal engineering change process could impact product reliability.


                 Purchasing (7.4)
                 Purchasing Process (7.4.1). The supplier management plan for the Development
                 and Sustainment Contract had not been approved. The Supplier Management Plan
                 identifies the criticality of items used on the EKV as well as the procurement information
                 for long lead time items. This is the first contract with full implementation of the
                 MDA Mission Assurance Provisions. The MDA Mission Assurance Provisions would
                 ensure design, manufacturing, test, and quality requirements were flowed down
                 to all mission-critical suppliers. Without the supplier management plan identifying
                 mission-critical suppliers, there is no assurance that essential requirements were
                 flowed down.

                 Purchasing Information (7.4.2). Raytheon did not always provide mission-critical
                 item information to its suppliers. For example, Raytheon did not identify all critical
                 items within its product data management system; and critical item information
                 was not always included in purchasing orders to subtier suppliers. Mission-critical
                 hardware and software items require more stringent controls to ensure product
                 reliability and safety. Designation of an assembly as a mission-critical item invokes
                 additional requirements, such as configuration audits, first article test and inspection,




12 │ DODIG-2014-111
                                                                        Quality Assurance Assessment



piece part traceability, and further process controls and monitoring. If the supply
chain is unaware that components or assemblies are critical items, then appropriate
requirements will not be imposed.

Validation of Purchased Product (7.4.3). Raytheon’s Hardware Acceptance Review
Checklists are used to identify the status of any open or unresolved actions against
hardware and software.     We found several reports had not been properly closed.
For example, the Hardware Acceptance Review Checklist for an inertial measurement
unit, shipped from Northrop Grumman to Raytheon, did not identify whether that
unit had been accepted or rejected. The quality note on the purchase order required
the Raytheon representative at Northrop Grumman to accept or reject the Hardware
Acceptance Review Checklist. Instead, this unit was shipped using a “ship at risk”
contract letter before completion of the Hardware Acceptance Review Checklist. This
poses a risk of incorporating unresolved quality issues into the next higher assembly.


Production and Service Provisions (7.5)
Control of Production and Service Provision (7.5.1). During the inspection we
found an instance where an operation was stopped because the parts kit, which
went through the kit audit process, contained a screw without threads. Further review
of the kitting process identified that required verifications of kitted hardware were
not being thoroughly conducted and completed.       It was also noted that Raytheon
instructions did not sufficiently describe the kit audit process.     A breakdown in
rigor and adequately documented processes will result in producing nonconforming
parts and material being issued to the production floor for buildup of EKVs.

Preservation of Product (7.5.5). Raytheon’s shipping requirements and processes
for the Inertial Measurement Unit (IMU) were not sufficient. The IMU specification
did not include a shipping requirement for prohibition against X-ray inspection during
commercial flight transportation.    Raytheon did not have a documented process
to prevent X-ray overexposure, and since the IMU may be damaged by prolonged
or numerous X-ray exposures, special transportation instructions are necessary for
product preservation.


Monitoring and Measuring Equipment (8.2)
Raytheon was not meeting software defect containment requirements.             Software
defect containment ensures that software issues are detected and corrected before
going to the next phase of software development. The defect containment per-phase
goal was set between 90 and 95 percent; however, for March 2013, the actual defect




                                                                                      DODIG-2014-111 │ 13
Quality Assurance Assessment



                 containment during each phase was as follows: requirements phase 42 percent;
                 design phase 39 percent; the code/unit test phase 34 percent; and integration test
                 phase 38 percent. Raytheon also did not have any information on corrective actions
                 taken to correct the low defect containment. The cost and time to correct defects
                 increases exponentially as time elapses from the time defects are introduced. Lack
                 of immediate corrective action increases the risk of defects remaining in the software
                 as well as potential schedule slips.


                 Control of Nonconforming Product (8.3)
                 Boeing and Raytheon did not obtain MDA approval for some waivers and
                 deviations that were classified as “critical” or “major.” Three deviations were noted
                 for Payload 52 that included modifications to the Isolated IMU, adapter plate, and
                 accelerometers, as well as a fourth deviation for the use of silver plated copper wire.
                 In addition, Boeing had not approved the technical adequacy of the engineering
                 disposition, but had concurred in classification only. Without MDA’s approval
                 for major deviations, Raytheon may be delivering hardware that does not meet
                 requirements.   Also,   Quality   Notifications were   not   always   documented for
                 nonconformances generated on Manufacturing Lien Authorizations (MLAs). The MLA
                 is an authorization to allow the movement of an incomplete item into production.
                 The Raytheon MLA instruction states, “the MLA process is NEVER used to process
                 hardware with discrepancies, unless used in conjunction with a Delayed Disposition.”
                 We noted several examples where nonconformances were documented on MLAs
                 but did not have associated Quality Notifications. We also noted several examples
                 of Quality Notifications that were written but were not identified within the MLA.
                 Without properly documenting hardware issues on Quality Notifications, these
                 issues may not receive adequate engineering review and disposition. As a result,
                 nonconformances may circumvent the engineering review board and material
                 review board processes. Approval of deviations ensures that MDA is aware of any
                 potential impacts to the system that could result from incorporation of hardware
                 or software that is not produced to specifications.




14 │ DODIG-2014-111
                                                                         Quality Assurance Assessment



Boeing
Our assessment of the EKV at Raytheon also included review of Boeing’s management
of Raytheon as its supplier.


Customer Focus (5.2).
Boeing had approved modifications to the Raytheon Mission Assurance Provisions
Requirements Applicability Matrix even though there was inadequate rationale to
justify the modifications, particularly for new and modified hardware and software.
Inadequate justifications existed for the following requirements: Sneak Circuit
Analysis, Qualification/Re-Qualification Test Program, Workmanship Standards,
Product Identification and Handling, System Safety Program Plan, Design and
Development of Computer Systems, and Interface Design Requirements. The purpose
of the Requirements Applicability Matrix was for Raytheon to show Boeing how
they met the intent of the MDA Mission Assurance Provisions. Modifications and, or
tailoring of the requirements is allowed provided that a sound engineering rationale
is provided.   Changes to mission-critical requirements without adequate rationale
may result in a product that does not meet customer requirements and increased
program performance, cost, and schedule risks.


Planning of Product Realization (7.1)
Configuration Management (7.1.3). Boeing was allowing design changes without
using the appropriate engineering documentation necessary to control the configuration
changes of the EKV baseline. Boeing deferred requirements indefinitely, exempting
requirements through a contract letter without the rigor of established change
management processes, and incorrectly recategorized waiver requests. These conditions
can also result in Boeing delivering products that do not meet requirements.


Design and Development (7.3)
Boeing’s critical supplier list did not include all the mission-critical suppliers that
Raytheon identified as “critical suppliers.” These included suppliers for harnesses,
circuit card assemblies, aft covers, and beamsplitters.     Suppliers of critical items
require additional controls and oversight to include flowdown of MDA assurance
provisions, prework authorization reviews, postaward reviews, and product and
process verification assessments. If suppliers of mission-critical items are not included
on the critical supplier list, the additional controls and oversight required to ensure
product integrity of the parts and overall system will not be implemented and this
may lead to quality escapes and performance degradation.




                                                                                        DODIG-2014-111 │ 15
Quality Assurance Assessment



                 Corrective Actions Taken to Date
                 According to the GMD Program Office, they have prepared corrective action plans for
                 the nonconformances identified. MDA, Boeing, and Raytheon are working together
                 to ensure that all of the findings and recommendations are understood, a root cause
                 analysis is performed, and corrective action plans are initiated. Table 3 shows the
                 status of corrective action plans for each site as of July 24, 2014.

                 Table 3. Contractor Nonconformance Closeout Status
                       Responsible Contractor   Nonconformances         In Work         Complete
                      Boeing                            7                  0               7
                      Raytheon                         40                   4             36
                      GMD Program Office                1                   0              1
                      Total                            48                   4             44

                 Source: GMD Program Office, July 24, 2014




16 │ DODIG-2014-111
                                                                                            Finding A




Finding A
Software Management Practices
We found a significant number of AS9100C nonconformances related to software
development and testing.        Boeing and Raytheon were not ensuring that software
development processes and testing were sufficient. This lack of process discipline and
controls could result in system reliability risks.


The significant number of software nonconformances indicated a lack of process
discipline:

         •	 Software Development – Raytheon did not always adhere to all software
              coding conventions and standards.

         •	 Corrective Action and Verification – Raytheon was not meeting software
              defect containment requirements and did not take corrective action.

         •	 Software Testing – For one EKV software release, not all required safety
              critical software test cases were conducted for the CE-I formal delta
              qualification testing.

Recommendation A – Management Comments and
Our Response
We recommend that the Director, Missile Defense Agency ensure software
development processes are fully documented, implemented, and enforced
throughout the Exoatmospheric Kill Vehicle supply chain.


Director, Missile Defense Agency
Director, Missile Defense Agency agreed and projects that by the first quarter of
fiscal year 2015, MDA will correct and effectively implement actions to address
weakness within software development, verification, and validation process; the
training program; and the testing of critical safety items.


Our Response
The Director’s comments are responsive. We request that MDA notify the OIG when the
actions are complete. No further comments are required.




                                                                                     DODIG-2014-111 │ 17
Finding B




                 Finding B
                 Supply Chain Management
                 Boeing and Raytheon supplier management processes did not meet AS9100C quality
                 standards.    They did not ensure all quality assurance and technical requirements
                 for mission-critical assemblies flowed down to the supply chain and were verified.
                 This could result in suppliers delivering nonconforming hardware or software, thus
                 reducing system reliability.


                 We noted a significant number of nonconformances in the following areas.

                          •	 Supply Chain Management Planning – Raytheon did not have an approved
                              Supplier Management Plan for the Development and Sustainment Contract.

                          •	 Design and Development Requirements – Boeing and Raytheon did not
                              always flow down all necessary quality, safety, and mission assurance
                              requirements for critical item suppliers.

                          •	 Verification of Purchased Product – Raytheon did not complete the
                              Hardware Acceptance Review Checklist process before allowing hardware
                              to be shipped.

                 Recommendation B.1 – Management Comments and Our
                 Response
                 We recommend that the Director, Missile Defense Agency ensure all suppliers
                 of critical items are identified as critical suppliers, receive the necessary
                 contractual requirements, and requirements are verified throughout the
                 supply chain.


                 Director, Missile Defense Agency
                 The Director, Missile Defense Agency agreed and stated that MDA is identifying
                 suppliers of critical items to ensure the flow down of quality and mission assurance
                 requirement to those suppliers.


                 Our Response
                 The Director’s comments are responsive. We request that MDA notify the OIG when the
                 actions are complete. No further comments are required.




18 │ DODIG-2014-111
                                                                                          Finding B



Recommendation B.2 – Management Comments and
Our Response
We recommend that the Director, Missile Defense Agency ensure fielded hardware
affected by an insufficient Hardware Acceptance Review Checklist process is
assessed for risk.


Director, Missile Defense Agency
The Director, Missile Defense Agency agreed and stated that MDA is conducting a risk
assessment on fielded hardware affected by insufficient requirements and the results
of the assessment will be incorporate into the MDA continuous improvement plan.


Our Response
The Director’s comments are responsive. We request that MDA notify the OIG when
the actions are complete. No further comments are required.




                                                                                   DODIG-2014-111 │ 19
Finding C




                 Finding C
                 Configuration Management
                 Boeing and Raytheon management and execution of design variances and engineering
                 changes did not meet AS9100C requirements. Boeing and Raytheon were not adhering
                 to configuration management processes, specifically with respect to management of
                 change processes for design requirements. The lack of adherence to these disciplines
                 can result in the fielding of an unapproved configuration.


                 We noted a significant number of nonconformances in the following areas.

                         •	 Design Variance and Engineering Changes – Raytheon was using waiver
                            and deviation process instead of the engineering change process to modify
                            the production baselines.    Additionally, Boeing used contract letters to
                            implement changes to the design and performance specification instead of
                            the appropriate change management process. Not following the required
                            process could increase the risk of ineffective change control.

                         •	 Classification of Variance – Boeing and Raytheon were incorrectly classifying
                            waivers and deviations, resulting in changes to the baseline without
                            appropriate approval.

                 Recommendation C – Management Comments and
                 Our Response
                 We recommend that the Director, Missile Defense Agency ensure design and
                 configuration changes do not circumvent the Missile Defense Agency Assurance
                 Provisions for configuration management.


                 Director, Missile Defense Agency
                 The Director, Missile Defense Agency, agreed and stated that MDA is updating the
                 Configuration Management process to incorporate omitted engineering change
                 processes, properly characterize major and minor variances within the process, and
                 actively manage the waiver/deviation process.


                 Our Response
                 The Director’s comments are responsive. We request that MDA notify the OIG when the
                 actions are complete. No further comments are required.




20 │ DODIG-2014-111
                                                                                              Finding D




Finding D
Overall Findings and Recommendations
We identified a total of 48 nonconformances that were violations of the AS9100C
standard.    Based on these nonconformances, we determined that MDA, Boeing,
and Raytheon were not ensuring that the all quality management systems were in
compliance with the AS9100C standard.          These nonconformances could result
in the production of nonconforming hardware and software which could effect
mission success.


The nonconformances represent very specific quality management system issues
requiring resolution.   It appears, from the data provided, that the GMD Program
Office has a process to identify root causes and put corrective action plans in place,
which we acknowledge and appreciate.        It is our professional judgment that the
following three primary findings represent the most problematic areas requiring
special attention: Software Management Practices, Supply Chain Management, and
Configuration Management. Although we found the majority of quality management
systems in compliance with the AS9100C standard, the importance of these
three quality assurance categories cannot be overstated in terms of improving
reliability growth.


Recommendation D – Management Comments and
Our Response
We recommend that the Director, Missile Defense Agency conduct an effective
root cause analysis and implement corrective actions for all 48 nonconformances
including assessing the risk to fielded hardware.


Director, Missile Defense Agency
The Director, Missile Defense Agency, agreed and stated that MDA is conducting a
root cause analysis and developing corrective actions for deficiencies identified during
the onsite assessment and will assess the risk to fielded hardware.


Our Response
The Director’s comments are responsive. We request that MDA notify the OIG when the
actions are complete. No further comments are required.




                                                                                       DODIG-2014-111 │ 21
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this assessment from September 2013, through August 2014, in
                 accordance with the Council of the Inspectors General on Integrity and Efficiency,
                 “Quality Standards for Inspection and Evaluation.” Those standards require that
                 we plan and perform the assessment to obtain sufficient, appropriate evidence to
                 provide a reasonable basis for our findings and conclusions based on our assessment
                 objectives. We believe that the evidence obtained provides a reasonable basis for our
                 findings and conclusions based on our assessment objectives.

                 To evaluate the management of the EKV quality assurance program, we performed a
                 quality assurance assessment of the MDA GMD Program Office in Huntsville, Alabama,
                 and Raytheon Missile Systems in Tucson, Arizona. To review the quality management
                 system, our assessments focused on the following:

                         •	 Applicable Statutory/regulatory requirements

                         •	 Contractual quality management system (AS9100C)

                         •	 Internal quality assurance processes and procedures

                 We reviewed program office documentation, including EKV configuration differences,
                 field asset reliability data, and program office risk management information.     At
                 Raytheon, we reviewed contractual requirements, manufacturing and quality
                 management system documentation, failure reporting data, and waivers and deviations.
                 Because both CE-I and CE-II configurations are in use, we compared select builds to
                 note changes in the quality management system processes and procedures.

                 We issued findings and recommendations commensurate with our assessment of
                 the quality assurance and reliability of the GMD, EKV, which was procured through
                 contract effort. We did not assess or comment upon the consequences of our findings
                 as they relate to the contractual rights and obligations of the parties involved nor
                 any resulting contracting actions that may be available to MDA.




22 │ DODIG-2014-111
                                                                                         Appendixes



DoD OIG Assessment Criteria
AS 9100C, Quality Management Systems - Requirements for Aviation,
Space and Defense Organizations
AS9100C was contractually imposed on Boeing and flowed down to Raytheon for
the DSC, awarded in June 2012, by way of the MDA Assurance Provisions (MAP).
The MAP establishes requirements, standards, and policies for quality, safety, and
mission assurance. Therefore, we used AS9100C standard as our assessment criteria.
The AS9100C standard breaks down quality assurance requirements into five
major clauses:

        •	 Quality Management System;

        •	 Management Responsibility;

        •	 Resource Management;

        •	 Product Realization, and

        •	 Measurement, Analysis, and Improvement

The Quality Management System, Management Responsibility, and Resource
Management clauses of AS9100C require the organization to have a quality assurance
management organization that has all the resources and authority to affect the
end-item quality of the product. In addition, these clauses require the organization
to have a quality assurance manual with strict controls over all documentation, data,
and procedures that affect the quality of the product. Product Realization covers the
activities and processes necessary to bring a product into existence. Measurement,
Analysis, and Improvement requires the organization to ensure the product
continuously improves.   The clause includes customer satisfaction, internal audit,
monitoring and measuring processes and product, and control of nonconforming
products to ensure continual improvement.

Product realization is broken down further in AS9100C as follows:

        •	 Planning of Product Realization,

        •	 Customer-Related Processes,

        •	 Design and Development,




                                                                                    DODIG-2014-111 │ 23
Appendixes



                         •	 Purchasing,

                         •	 Production and Service Provision, and

                         •	 Control of Monitoring and Measuring Equipment

                 Planning of Product Realization requires the organization to develop processes
                 needed for design and development of product and includes elements such as
                 procedures, quality assurance records, resource requirements, safety and reliability
                 programs, and inspection and test.         Customer-Related Process requires the
                 organization to determine customer requirements both specified and derived. These
                 requirements include technical, statutory, and regulatory requirements. Design and
                 Development includes requirements that cover planning, inputs, outputs, review,
                 verification, validation, and control of changes as related to design and development.
                 Purchasing requires the organization to ensure that the purchased product conforms
                 to specified purchase requirements and that all products purchased from suppliers
                 are verified against purchase agreement requirements. The Production and Service
                 Provision requires the organization to ensure that production is accomplished
                 under controlled conditions using drawings and specifications, work instructions,
                 production tools and software programs, monitoring and measuring equipment,
                 and evidence that all production and inspection/verification operations have been
                 completed as planned.    Control of Monitoring and Measuring Equipment requires
                 the organization to ensure that devices used for determining product compliance
                 with performance characteristics are properly maintained to provide assurance of
                 credible measurements.


                 Use of Technical Assistance
                 Quality assurance engineers and quality assurance specialists with a background in
                 defense assisted in the assessment. We established teams of subject matter experts
                 who assessed to the AS9100C Quality Management System standard.           The subject
                 matter expert teams consisted of 17 quality assurance engineers who have received
                 AS9100C certification training, and have an average of 17 years of quality assurance
                 audit experience.




24 │ DODIG-2014-111
                                                                                          Appendixes




Appendix B
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued eight
reports discussing the Ground-Based Midcourse Defense, Exoatmospheric Kill Vehicle.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.


GAO
Report No. GAO-13-294SP, “Defense Acquisitions: Assessments of Selected Weapon
Programs,” March 28, 2013

Report No. GAO-12-486, “Missile Defense: Opportunity Exists to Strengthen Acquisitions
by Reducing Concurrency,” April 20, 2012

Report No. GAO-12-400SP, “Defense Acquisitions: Assessments of Selected Weapon
Programs,” March 29, 2012

Report No. GAO-11-555T, “Missile Defense: Actions Needed to Improve Transparency
and Accountability,” April 13, 2011

Report No. GAO-11-233SP, “Defense Acquisitions: Assessments of Selected Weapon
Programs,” March 29, 2011

Report No. GAO-11-372, “Missile Defense: Actions Needed to Improve Transparency
and Accountability,” March 24, 2011

Report No. GAO-10-311, “Defense Acquisitions: Missile Defense Transition Provides
Opportunity to Strengthen Acquisition Approach,” February 25, 2010

Report No. GAO-09-403T, “Defense Acquisitions: Charting a Course for Improved
Missile Defense Testing,” February 25, 2009




                                                                                     DODIG-2014-111 │ 25
Management Comments




                 Management Comments
                 Missile Defense Agency


                                             DoD IG Project DTOTAD-0005
                                  Exoatmospheric Kill Vehicle Quality Assurance Assessment
                                                DRAFT REPORT - Part A
                                                        July 2, 2014

                                Missile Defense Agency Response to DoD IG Recommendations

                      RECOMMENDATIONS

                      Recommendation A: Ensure software development processes are fully documented,
                      implemented, and enforced throughout the EKV supply chain.


                      MDA Response to Recommendation A: Concur.
                      Those portions of the Software (SW) development processes that may lack verification and
                      validation process, suitable training program, proper SW Coding, and critical safety testing will be
                      corrected and effectively implemented. MDA corrective actions will be monitored and reviewed as a
                      part of the Contractor Performance Assessment Report (CPAR) and the Quality Assurance
                      Surveillance Plan (QASP) to ensure conformance and commitment to the corrective actions. The
                      MDA corrective actions findings regarding the software development processes are projected to be
                      completed by 1QFY15.

                      Recommendation B1: Ensure all suppliers of critical items are identified as critical suppliers
                      receive the necessary contractual requirements, and requirements are verified throughout the
                      supply chain.

                      MDA Response to Recommendation B1: Concur.
                      MDA will correct and effectively implement: Quality and mission assurance requirement flow-down
                      for critical suppliers that may lack all critical items identification and critical information contained
                      in purchasing orders to sub-tier suppliers; supplier management conformed to approved supplier
                      management plan for the Development and Sustainment Contract; and verification of purchased
                      items. MDA is ensuring suppliers of critical items are identified as critical suppliers and receive the
                      necessary contractual requirements and the requirements are verified throughout the supply chain.
                      The corrective actions will be monitored and reviewed as a part of the CPAR and the QASP to
                      ensure conformance and commitment to the corrective actions.

                      Recommendation B2: Ensure Fielded hardware affected by insufficient requirements is
                      assessed for risk.

                      MDA Response to Recommendation B2: Concur.
                      MDA is ensuring fielded hardware affected by insufficient requirements is assessed for risks. The
                      corrective actions associated with this recommendation will be monitored and reviewed as a part of
                      the CPAR and the QASP to ensure conformance and commitment to the corrective actions. Results
                      of the risk management processes shall be used for continuous process improvement.




                                                                    Page 1 of 2




26 │ DODIG-2014-111
                                                                                                  Management Comments



Missile Defense Agency (cont’d)


    Recommendation C: Ensure design and configuration changes do not circumvent the Missile
    Defense Agency Assurance Provisions for configuration management.

    MDA Response to Recommendation C: Concur
    The Configuration Management process will incorporate any omitted engineering change processes,
    properly characterize major and minor variances, and actively manage the waiver/deviation process.
    MDA is ensuring that the design and configuration changes meet the Missile Defense Agency
    Assurance Provisions (MAP) for configuration management. The corrective actions associated with
    this recommendation will be monitored and reviewed as a part of the CPAR and the QASP to ensure
    conformance and commitment to the corrective actions.

    Recommendation D: Conduct effective root cause and corrective actions for all deficiencies
    including assessing the risk to fielded hardware.

    MDA Response to Recommendation D: Concur
    MDA is conducting root cause analysis and developing corrective actions for deficiencies including
    assessing the risk to fielded hardware. The corrective actions associated with this recommendation
    will be monitored and reviewed as a part of the CPAR and the QASP to ensure conformance and
    commitment to the corrective actions. The projected completion date is 1QFY15.




                                                Page 2 of 2




                                                                                                         DODIG-2014-111 │ 27
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                          AS Aerospace Standard
                      BMDS Ballistic Missile Defense System
                          CE Capability Enhancement
                       DoDD Department of Defense Directive
                        DoDI Department of Defense Instruction
                         DSC Development and Sustainment Contract
                         EKV Exoatmospheric Kill Vehicle
                      FMECA Failure, Modes, Effects, and Criticality Analysis
                         FTG Flight Test Ground-Based Interceptor
                         GBI Ground-Based Interceptor
                       GMD Ground-Based Midcourse Defense
                        IMU Inertial Measurement Unit
                        MAP MDA Assurance Provisions
                        MDA Missile Defense Agency
                        MLA Manufacturing Lien Authorization

                       NSPD National Security Presidential Directive
                         OIG Office of Inspector General
                        QMS Quality Management Systems




28 │ DODIG-2014-111
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
